Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      HMO WITHDRAWALS
  Impact on Medicare Beneficiaries




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 2000
                      OEI-04-00-00390
                            OFFICE OF INSPECTOR GENERAL

Public Law 95-452, as amended by Public Law 100-504, mandated the mission of the Office of
Inspector General (OIG). That mission is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General.
OIG participating staff are shown on the inside of back cover.



     To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7732.
         Reports are also available on the World Wide Web at our home page address:

                                   http://www.hhs.gov/oig/oei
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




       HMO WITHDRAWALS
  Impact on Medicare Beneficiaries




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 2000
                      OEI-04-00-00390
                              TABLE OF CONTENTS

                                                                                                                                 PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Affected Beneficiaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Replacement Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Transition . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Characterization of Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Financial Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Future HMO Withdrawals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


APPENDICES

    A. Summary Comparison: 1999 and 1998 Findings. . . . . . . . . . . . . . . . . . . . . . . . . . .18

    B. Non-Response vs. Respondent Analysis. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

    C. Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

    D. Risk HMOs and Enrollment: December 1997 to June 2000. . . . . . . . . . . . . . . . . . . 27

    E. Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

                   EXECUTIVE SUMMARY

PURPOSE
      To determine the impact on beneficiaries when their health maintenance organization
      withdrew from Medicare or reduced its service area.

BACKGROUND

      About 6.3 million beneficiaries receive their Medicare benefits through Medicare-
      contracted risk health maintenance organizations (HMOs). Risk HMOs receive a fixed
      monthly Medicare payment per beneficiary. Such HMOs must provide a full range of
      Medicare services, and are at risk for any health care cost that exceeds the fixed payment.

      Risk HMOs sign annual contracts with HCFA, and have an option to withdraw from the
      Medicare program totally or in a particular service area. At the end of 1999, 99 risk
      HMOs either withdrew from their Medicare contracts or reduced their service areas. At
      the end of 1998, 100 risk HMOs did likewise. When risk HMOs withdraw, beneficiaries
      enrolled with those plans must choose traditional coverage under Medicare or enroll with
      another HMO, if one provides coverage in their area.

      This report shows the impact of the HMO withdrawals on Medicare beneficiaries.

FINDINGS

HMO withdrawals at the end of 1999 affected fewer beneficiaries than the 1998
withdrawals, but a much greater percentage of them were left without an HMO option

      About 300,000 beneficiaries were affected by HMO withdrawals at the end of 1999,
      compared to about 400,000 at the end of 1998. As a result of the 1999 withdrawals, 30
      percent had no HMO available to join; only 12 percent had no HMO available to join after
      the 1998 withdrawals.

About one-half of beneficiaries joined another HMO when their HMO withdrew at the end
of 1999 as compared to about two-thirds after the 1998 withdrawals

      When their HMOs withdrew at the end of 1999, 55 percent of the beneficiaries joined
      another HMO, and 45 percent went to traditional Medicare. Statistically, this is a
      significant shift from the 1998 results. At that time, 66 percent joined another HMO and
      34 percent went to traditional Medicare.




HMO Withdrawals                                 1                                   OEI-04-00-00390
       Affected beneficiaries seemed to prefer risk HMOs over traditional Medicare. To illustrate,
       of the 233 beneficiaries we interviewed who had another HMO available to join after the
       1999 withdrawals, 193 joined another one.

Most beneficiaries encountered few transition problems when their HMO withdrew at the
end of 1999, but some experienced difficulty

       Transition: About 82 percent of beneficiaries whose HMO withdrew at the end of 1999
       said their transition to alternative health care coverage was easy to somewhat easy. Of
       those who had no HMO available, 74 percent expressed that opinion, compared to 85
       percent of those who did have an HMO available.

       The remaining beneficiaries expressed some difficulty. Mostly, they cited problems of
       increased cost, primarily related to prescription drugs.

       Timely Information: Eighty-seven percent of beneficiaries said they received notices in
       sufficient time to make decisions about their health care coverage.

       Adequate Information: About 73 percent of beneficiaries said they received adequate
       information about other health care options.

       About 77 percent of beneficiaries who went to traditional Medicare said they received
       adequate information about supplemental insurance.

Beneficiaries characterized their health care to be about the same or better after their HMO
withdrew

       Ninety-two percent of beneficiaries who went to another HMO, and 87 percent of those
       who went to traditional Medicare, characterized the health care they received after their
       HMO withdrew as about the same as, or better than, that received in their former HMO.

       This may be partly attributable to beneficiary ability to keep the same medical care
       providers. About 90 percent of beneficiaries who went to traditional Medicare, and 69
       percent of those who went to another HMO said they kept the same primary care
       physician. Likewise, the majority of beneficiaries also kept at least some of their
       specialists. Continuity of care is important to Medicare beneficiaries, and changing
       physicians was a major concern for those who had to do so.

Financial impact was greater on beneficiaries who went to traditional Medicare

       Monthly Premium: According to information from surveyed beneficiaries, the average
       monthly insurance premium was $108.82 for those who went to traditional Medicare -- an
       increase of $84.06 after their HMO withdrew. The average new HMO premium was
       $20.27 -- an increase of $9.08 for beneficiaries who joined another HMO.


HMO Withdrawals                                 2                                    OEI-04-00-00390
      Supplemental Insurance: Seventy-five percent of beneficiaries who had no HMO
      available, and went to traditional Medicare, obtained supplemental insurance. Sixty-nine
      percent of beneficiaries who had another HMO available, but chose traditional Medicare
      obtained supplemental insurance. Of beneficiaries who did not, 55 percent said it was too
      expensive.

      Non-Covered Services: Some HMOs provided coverage for services, such as prescription
      drugs, that are not covered by Medicare. Of beneficiaries who went to traditional
      Medicare, 63 percent said they would now have to pay for some services which had been
      covered by their former HMO. Of beneficiaries who joined another HMO, 19 percent said
      their new HMO would cover fewer services than their former HMO.

More than one-fourth of beneficiaries expressed concern about future HMO withdrawals

      Thirty-two percent of beneficiaries who went to traditional Medicare, and 24 percent of
      those who chose another HMO expressed concern about future HMO withdrawals. Fifteen
      percent said they had already experienced an HMO withdrawal at the end of 1998.

CONCLUSION

      When their HMO withdrew, more beneficiaries lost their option to join another HMO for
      1999, as compared to 1998. The transition to new health care was relatively easy for most,
      but it was difficult for some. When they had the option, the affected beneficiaries seemed
      to prefer to join another HMO, rather than returning to traditional Medicare. However,
      beneficiaries were concerned about availability of risk HMOs in the future, obtaining
      information on health care options, and increasing cost -- especially for prescription drugs.

AGENCY COMMENTS

      HCFA commented on our draft report and described various actions to assist beneficiaries
      affected by future HMO withdrawals. For example, HCFA has released final Medicare
      regulations designed to broaden health care options for beneficiaries. HCFA is also
      enhancing outreach efforts for the fall of 2000 to better inform beneficiaries of their health
      care options. Appendix E contains the full text of HCFA’s comments.




HMO Withdrawals                                  3                                    OEI-04-00-00390
                           INTRODUCTION

PURPOSE

      To determine the impact on beneficiaries when their health maintenance organization
      withdrew from Medicare or reduced its service area.

BACKGROUND

Medicare Health Care Options

      Medicare is a Federal health program for individuals age 65 and older, and for certain
      categories of disabled people. In 1999, Medicare served approximately 39.3 million
      beneficiaries, and paid benefits totaling over $204.9 billion.

      The 1997 Balanced Budget Act created Medicare+Choice to broaden beneficiary health
      plan options. Along with traditional Medicare and risk health maintenance organization
      (HMOs), new health care options may include provider-sponsored organizations, preferred
      provider organizations, and medical savings account plans.

      The Health Care Financing Administration (HCFA), Department of Health and Human
      Services, has oversight responsibility for the Medicare program, including Medicare-
      contracted HMOs.

      Throughout this report, we use the terms health maintenance organizations or HMOs to
      refer to risk HMOs. We do not include Cost or Demonstration HMOs in this report.

Medicare Risk HMOs

      About 6.3 million beneficiaries receive Medicare benefits through Medicare-contracted risk
      HMOs. Risk HMOs sign annual contracts with HCFA. However, they can withdraw from
      the Medicare program totally or in a particular service area after the contract period.
      HMOs may decide to withdraw from service areas where they fail to realize a profit, have
      diminishing profits, or are unable to attract a sufficient number of beneficiaries.

      Risk HMOs receive a fixed monthly Medicare payment per beneficiary. Such HMOs must
      provide a full range of Medicare services, and they are at risk for any health care cost that
      exceeds the fixed payment. In addition, many risk HMOs offer extra benefits that are not
      covered by Medicare. For example, some do not require beneficiaries to pay premiums and
      deductibles. Others provide additional health care services such as coverage for
      prescription drugs.



HMO Withdrawals                                 4                                   OEI-04-00-00390
Beneficiaries Who Lost HMO Coverage

      At the end of 1999, 99 risk HMOs either withdrew from their Medicare contracts or
      reduced their service areas. At the end of 1998, 100 risk HMOs did likewise.

      When risk HMOs withdraw, beneficiaries enrolled with those plans must choose traditional
      coverage under Medicare or enroll with another HMO, if one provides coverage in their
      area. In such instances, however, beneficiaries are inconvenienced, may incur additional
      costs, and may have to find different physicians and other health care providers. Further,
      beneficiaries who develop End-Stage Renal Disease after enrolling in an HMO may not
      subsequently enroll in another HMO, even if one is available. This remains true even if
      their HMO withdraws from Medicare.

SCOPE AND METHODOLOGY

      Our findings are based largely on beneficiary views of the impact that HMO withdrawals
      had on their health care. We interviewed a sample of beneficiaries who were actually
      disenrolled from HMOs that withdrew from Medicare. We also interviewed HCFA
      regional and central office officials who had oversight responsibilities for HMOs. Further,
      we reviewed relevant documentation, such as HCFA files on the withdrawals,
      Medicare+Choice regulations, and instructions on HMO responsibilities to beneficiaries.

      We examined the extent that beneficiaries were informed about HMO withdrawals, the
      health care options available to them, the choices they made, and their opinions on the
      characteristics and cost of care before and after their HMO withdrew from Medicare. We
      did not track and compare detailed aspects of coverage for individual beneficiaries before
      and after the withdrawals.

Data Collection

      Sample: We interviewed 502 randomly selected disenrolled beneficiaries stratified by
      whether or not they had another HMO available to join after their HMO withdrew at the
      end of 1999. Table 1 shows our sample details.

                                              Table 1

                                    Sample Selection and Results

                                    Universe   Sample      Adjustments   Adjusted       Interviewed   Response
                                                                          Sample                        Rate

       Number of HMOs                  99        N/A          N/A          N/A             N/A          N/A

       Disenrolled Beneficiaries    298,855      700          -14*         686             502          73%

              Stratification
       1. No HMO Available        90,211      350           -6             344             242          70%
       2. Had HMO Available      208,644      350           -8             342             260          76%
      *13 sample members were deceased and one resides in an assisted living facility


HMO Withdrawals                                        5                                         OEI-04-00-00390
      To select our sample, we used HCFA’s list of HMOs that withdrew from Medicare or
      reduced service areas at the end of 1999. Next, we used HCFA’s Group Health Plan
      Master File to identify beneficiaries who had disenrolled from those HMOs between
      September 1, 1999 and December 31, 1999. Finally, we used HCFA’s Medicare Plan
      Withdrawal Information File to stratify disenrolled beneficiaries by whether or not they had
      another HMO available to join.

      Survey: We surveyed beneficiaries by telephone, using a standardized questionnaire. On
      May 16, 2000, we advised, by mail, all sampled beneficiaries, of our survey objective, and
      that we would call them later about their experience in obtaining health care coverage after
      their HMO withdrew from Medicare.

      We conducted our interviews between May 22, 2000 and June 2, 2000. We completed
      telephone interviews with 502 of our 686 sampled beneficiaries--a response rate of 73
      percent. Not all beneficiaries we interviewed responded to every question. Where fewer
      than all 502 beneficiaries answered a particular question, we point that out in the applicable
      findings of the report.

      Data Reliability: HCFA’s Medicare Plan Withdrawal Information File contained the most
      reliable data available on HMOs that withdrew and those which continue to operate. The
      file was created specifically to track and provide current information to Medicare
      beneficiaries and HCFA program staff on HMO withdrawals.

      In July 2000, HCFA staff advised us that 326,689 beneficiaries were actually disenrolled by
      the 1999 HMO withdrawals rather than the 298,855 shown in Table 1. Also, HCFA’s
      recent numbers showed that 79,000 had no other HMO available rather than the 90,211 we
      show in Table 1.

      Two methodological factors accounted for the difference in disenrollment numbers we used
      in Table 1 and those reported to us by HCFA in July. First, Table 1 reflects disenrollments
      in HCFA’s Medicare Plan Withdrawal Information File during the September - December
      1999 time period. We obtained these numbers from HCFA in May 2000. HCFA’s July
      numbers reflect disenrollments during the June - December 1999 time period.

      Second, HCFA’s July numbers on disenrollments included beneficiaries in five counties of
      one State where an HMO had reduced its service area, but excluded all beneficiaries in the
      remaining counties of that State who were involuntarily disenrolled because HCFA had
      terminated the HMO’s Medicare participation. In May 2000, HCFA’s Medicare Plan
      Withdrawal Information File that we used had included those beneficiaries who were
      involuntarily disenrolled when HCFA terminated the HMO.

      We determined that our sample included only 33 beneficiaries who were involuntarily
      disenrolled from the terminated HMO. Our analysis indicated that excluding those 33
      beneficiaries would not have significantly changed our findings. Furthermore, these
      beneficiaries were in a situation similar to those whose HMO voluntarily withdrew.

HMO Withdrawals                                 6                                    OEI-04-00-00390
          Hence, we believe it is appropriate to report our results according to the sample we used at
          the time we conducted the survey.

Data Analysis

          We aggregated responses to each survey question. Our results are projectable to our
          study’s universe of 298,855 beneficiaries. To project our results to this universe, we
          weighted survey responses in accordance with each strata’s proportion to the universe.
          Further, our projections are based on the number of beneficiaries who actually answered
          each question.

          We compared the results of our analysis of the 1999 HMO withdrawals to results of a
          similar analysis we did of the 1998 withdrawals. Appendix A provides a detailed
          comparison. However, unless otherwise noted, data analysis presented in this report refer
          to the 1999 withdrawals.
.
          We conducted a nonresponse analysis to determine whether or not significant differences
          exist between respondents and nonrespondents. We found no nonresponse bias based on
          age, gender, and whether or not beneficiaries had another HMO available to join.
          Appendix B shows our nonresponse analysis.

          Finally, we determined confidence intervals for each key finding in the report. Appendix C
          shows the confidence intervals for those findings.

                                           _ _ _ _ _ _ _

          We conducted our inspection between May 2000 and June 2000. We conducted the
          inspection in accordance with the Quality Standards for Inspections issued by the
          President's Council on Integrity and Efficiency.




    HMO Withdrawals                                7                                    OEI-04-00-00390
                                   FINDINGS

HMO withdrawals at the end of 1999 affected fewer
beneficiaries than the 1998 withdrawals, but a much greater
percentage of them were left without an HMO option
      Fewer beneficiaries were affected as a result of the 1999 withdrawals, although the number
      of HMO withdrawals was virtually the same as in 1998. To illustrate, about 300,000 were
      affected by the 1999 withdrawals, compared to about 400,000 at the end of 1998.

      A greater number of beneficiaries, however, were left without a risk HMO option for
      health care after their HMO withdrew. According to HCFA managed care information
      system data, about 30 percent of the beneficiaries in our study population had no HMO
      available to join when their HMO withdrew at the end of 1999, compared to about 12
      percent for 1998.

About one-half of beneficiaries joined another HMO when
their HMO withdrew at the end of 1999 as compared to about
two-thirds after the 1998 withdrawals
      When their HMOs withdrew at the end of 1999, 55 percent of the beneficiaries joined
      another HMO, and 45 percent went to traditional Medicare. After the 1998 HMO
      withdrawals, 66 percent of the beneficiaries joined another HMO and 34 percent went to
      traditional Medicare, a statistically significant difference.

      The shift in beneficiary enrollment away from HMOs is mostly attributable to decreased
      availability of HMOs for them to join. Between December 31, 1998 and December 31,
      1999, the number of risk HMOs available for serving beneficiaries decreased by 37 -- from
      346 to 309. Conversely, during the same time period, beneficiary enrollment in HMOs
      actually increased from about 6 million to about 6.3 million. Appendix D gives additional
      information on the reduced number of HMOs and increase in enrollees.




HMO Withdrawals                               8                                   OEI-04-00-00390
      Given a choice, beneficiaries seemed to prefer risk HMO coverage over traditional
      Medicare coverage. We obtained usable responses from 233 beneficiaries who had another
      HMO available to join after their HMO withdrew at the end of 1999. Of those, 193 (83
      percent) joined another HMO. Only 40 (17 percent) chose traditional Medicare instead of
      another HMO.

      The reasons cited most often for choosing another HMO over traditional Medicare were
      that beneficiaries did not have to purchase supplemental insurance and their overall costs
      were lower.

      The reasons cited most often for choosing traditional Medicare over another HMO were to
      have more freedom of choice in services, fear of losing access to their doctors and other
      providers, and a dislike for HMOs.

Most beneficiaries encountered few transition problems
when their HMO withdrew at the end of 1999, but some
experienced difficulty
Transition to alternative health care coverage was relatively easy for most
beneficiaries

      Eighty-two percent of beneficiaries said their transition to alternative health care coverage
      was easy to somewhat easy. Of beneficiaries who had no HMO available to join, 74
      percent expressed that opinion. Additionally, 85 percent of those who did have an HMO
      available expressed the same opinion. Beneficiaries frequently attributed the ease to
      adequate information about alternative health care coverage and former employer help in
      arranging for health care.




HMO Withdrawals                                 9                                     OEI-04-00-00390
      Those beneficiaries who expressed difficulty in their transition to alternative health care
      coverage mainly cited cost problems, particularly costs for prescription drugs. Both those
      beneficiaries who joined another HMO and those who went to traditional Medicare cited
      this problem.

Most beneficiaries received timely information on the withdrawal of their HMO and
on how to find other health care coverage

      HCFA required HMOs who were withdrawing or reducing service areas to mail final non-
      renewal notices to affected Medicare beneficiaries by September 15, 1999.

      Eighty-seven percent of beneficiaries said they received notices in sufficient time to make
      decisions for continuing their health care coverage under other options.

Most beneficiaries received adequate information about other health care options

      HCFA encouraged HMOs to provide beneficiaries with information to assist them in
      making informed decisions about other health care coverage. Such information included a
      list of available health care options, including how to obtain supplemental insurance. It also
      identified local outreach activities, such as health fairs, presentations, and public meetings.

      About 73 percent of beneficiaries told us they received adequate information about other
      health care options. About 63 percent of beneficiaries who had no HMO available to join,
      and 77 percent of those who did, told us they received adequate information.

      Conversely, 37 percent of beneficiaries who had no HMO available to join, and 23 percent
      of those who did, said they received inadequate information or none at all. They said that
      they wanted more detailed information about supplemental insurance and other specific
      health plans that were available to them.

                                               Table 2

                               Extent That Beneficiaries Were Informed

                                                Beneficiaries Who Did Not            Beneficiaries Who Did
                                                  Have HMO Available                 Have HMO Available
                                                         ( n=236)*                         (n=252)**

      Received adequate information                            63%                            77%
      Received inadequate information                          32%                           17%

      Received no information                                  5%                              6%

                     TOTAL                                   100%                            100%
      *Six beneficiaries did not answer the question about health care information.
      **Eight beneficiaries did not answer the question about health care information.




HMO Withdrawals                                           10                                        OEI-04-00-00390
      The most prevalent sources of information cited by beneficiaries included former or current
      HMOs, insurance sales people, former or current employers, spouse’s employer, media,
      and meetings which included HMO representatives.

Most beneficiaries who went to traditional Medicare received adequate
information on supplemental insurance

      About 77 percent of beneficiaries who went to traditional Medicare said they received
      adequate information on supplemental insurance. However, about 18 percent of the
      beneficiaries told us they received inadequate information or none at all on supplemental
      insurance. They frequently said they wanted more detailed information. Table 3 shows
      what beneficiaries said about information they received on supplemental insurance.


                                              Table 3

                               Information on Supplemental Insurance

                                                 Beneficiaries Who Had           Beneficiaries Who Had
                                                   No HMO Available                 HMO Available
                                                       ( n = 225)*                      (n = 35)**

       Received adequate information                          78%                        71%
       Received inadequate information                        10%                         6%

       Received no information                                7%                          9%
       Did not need information                               5%                         14%

                      TOTAL                                 100%                         100%
      *Eleven beneficiaries did not answer the question on supplemental insurance.
      **Five beneficiaries did not answer the question.


Beneficiaries characterized their health care to be about the
same or better after their HMO withdrew
Rating of care remained relatively constant

      The majority of beneficiaries who had used their new health plans characterized their care
      after their HMO withdrew to be about the same as that received in their former HMO.
      Table 4 shows beneficiary ratings of health care after the transition.




HMO Withdrawals                                          11                                      OEI-04-00-00390
                                                Table 4

                               Beneficiaries Rating of Their Health Care

                                   Beneficiaries Who Went to        Beneficiaries Who Went to
                                         Other HMOs                   Traditional Medicare
                                           (n = 169)*                       (n = 234)**

                  Better                           8%                         19%
            About the Same                        84%                         68%

                  Worse                            8%                         13%
          *Thirteen beneficiaries did not rate their health care.
          **Nine beneficiaries did not rate their health care.


      Beneficiaries who went to traditional Medicare rated their current care as better because of
      increased choice in physicians, ability to see specialists without referrals, shorter waits for
      appointments, and shorter waits at the doctor’s office.

      Beneficiaries who went to traditional Medicare rated their care as worse because of the
      increase in their costs. For example, one beneficiary said he now pays $60 per month for
      supplemental insurance, whereas no monthly payment was required for coverage with his
      former HMO.

      Likewise, beneficiaries who went to another HMO said their care was better or worse
      depending on whether their new HMO provided more or fewer services than the former
      HMO. The beneficiaries noted that fewer covered services generally result in additional
      costs for beneficiaries who need the services.

Most beneficiaries kept the same health care providers

      Ninety percent of beneficiaries who went to traditional Medicare and 69 percent of
      beneficiaries who went to another HMO told us they kept the same primary care physician.

      Additionally, most beneficiaries were able to keep their same specialists. To illustrate, 64
      percent of beneficiaries who went to traditional Medicare said they had specialists. Of
      those, 95 percent were able to keep some or all of them. Further, 67 percent of
      beneficiaries who went to another HMO said they had specialists. Of those, 75 percent
      were able to keep some or all of them.

      However, for beneficiaries who had to change physicians, it was a major concern. This
      concern was expressed by both beneficiaries who went to another HMO and those who
      went to traditional Medicare.

      Most of the HMOs that withdrew from Medicare at the end of 1999 had contracted with
      local physicians, rather than operating HMO-employee clinics. This helps explain why
      most beneficiaries kept the same physician when they changed health care delivery systems.




HMO Withdrawals                                            12                               OEI-04-00-00390
Financial impact was greater on beneficiaries who went to
traditional Medicare
Monthly premiums were greater

      Beneficiaries in traditional Medicare usually purchase supplemental insurance to help pay
      expenses that traditional Medicare does not cover. Conversely, beneficiaries in HMOs
      usually do not need additional insurance. However, many beneficiaries who join HMOs
      pay a monthly premium to the HMO.

      On average, beneficiaries who went to traditional Medicare after their HMO withdrew paid
      $84.06 per month more than they were paying in their former HMO. Comparatively,
      beneficiaries who went to another HMO experienced an average premium increase of $9.08
      per month. Table 5 compares the average monthly premiums for beneficiaries who went to
      another HMO to that paid by beneficiaries who went to traditional Medicare.

                                          Table 5

                                Premiums Paid by Beneficiaries

                                            Beneficiaries Who       Beneficiaries Who Went
                                             Went to HMOs           to Traditional Medicare
         Premium in Former HMO                     $11.19                   $24.76

         Premium in Current HMO                    $20.27                     NA
         Cost of Supplemental Insurance              NA                     $108.82

         Difference per Month                      + $9.08                  + $84.06
        Average monthly premiums based on beneficiary self-reported data.

      In computing the difference in average premiums, we included beneficiaries who said they
      had $0 costs. For example, about 51 percent of beneficiaries who went to traditional
      Medicare did not pay a monthly premium in the former HMO. Further, after their HMO
      withdrew and the beneficiaries went to traditional Medicare, some said they have $0 costs
      for supplemental insurance. Their costs for supplemental insurance was $0 because a
      former employer or another party paid the premium for them.

      Likewise, 65 percent of beneficiaries who went to another HMO did not pay a monthly
      premium in the former HMO. Also, 51 percent of beneficiaries who went to another HMO
      after 1999 still do not have to pay a monthly premium. The HMOs do not charge a
      premium as means of attracting enrollees.

      The average monthly premium for those beneficiaries who said they actually incurred a cost
      was much greater than that shown in table 5. To illustrate, for beneficiaries who joined
      another HMO, the average monthly premium for their former HMO is about $42.14, if we
      exclude those who had $0 cost. Likewise, excluding beneficiaries who had



HMO Withdrawals                                   13                                    OEI-04-00-00390
      $0 costs shows that the premium for beneficiaries who actually pay a premium in their
      current HMO is about $51.22.

      Similarly, for beneficiaries who went to traditional Medicare, if we exclude those who had
      $0 cost, the average monthly premium for their former HMO was about $54.22. After
      their HMO withdrew, the average costs for supplemental insurance is about $110.53 for
      beneficiaries who actually paid a monthly premium for that insurance.

Beneficiaries incurred supplemental insurance cost

      It is important to note that our analysis does not take into consideration deductibles and
      copayments incurred by beneficiaries before and after the withdrawal, or in either HMO or
      traditional Medicare settings. However, we did examine the cost of supplemental insurance
      which is widely purchased by beneficiaries in the traditional Medicare program to offset
      some of these expenses.

      The Balanced Budget Act guaranteed beneficiaries a right to buy certain Medigap
      insurance policies if available in their State. When a beneficiary applies for the Medigap
      insurance within 63 days of HMO disenrollment, insurance companies cannot (1) place
      preexisting conditions on the policies such as exclusion of benefits, and (2) discriminate in
      policy cost based on health status, claims experience, medical condition, or amount of
      health care services used.

      About 75 percent of beneficiaries who had no HMO available, and went to traditional
      Medicare, told us they had obtained supplemental insurance to cover expenses that
      traditional Medicare does not cover. Also, 69 percent of beneficiaries who had another
      HMO available, but chose traditional Medicare, said they obtained supplemental insurance.

      Beneficiaries who did not purchase supplemental insurance typically gave the reasons
      shown in table 6.

                                         Table 6

              Reasons Beneficiaries Did Not Purchase Supplemental Insurance

                                               Beneficiaries Who Had            Beneficiaries Who Had
                                                No HMO Available*                  HMO Available
         Too Expensive                                  31 (69%)                          6 (55%)

         On Medicaid                                      1 (2%)                           0 (0%)
         Other**                                        13 (29%)                          5 (45%)

                     TOTAL                             45 (100%)                        11 (100%)

        *Four beneficiaries did not answer the question about reasons for not purchasing supplemental insurance..

       **There was no consistent pattern for responses in the “other” category. Responses ranged from personal preference
        for not purchasing supplemental insurance to lack of understanding and lack of information about supplemental
        insurance.




HMO Withdrawals                                           14                                             OEI-04-00-00390
      Most beneficiaries who had supplemental insurance coverage obtained it on their own.
      Table 7 shows how beneficiaries who went to traditional Medicare obtained supplemental
      insurance.

                                          Table 7

                     How Beneficiaries Who Went to Traditional Medicare

                             Obtained Supplemental Insurance

                                               Beneficiaries Who Had            Beneficiaries Who Had
                                                No HMO Available*                  HMO Available
        Purchased Themselves                           158 (90%)                         21 (88%)

        Through Former Employment                        12 (7%)                           2 (8%)

        Medicaid, Union or Other                          5 (3%)                           1 (4%)
                     TOTAL                             175 (100%)                       24 (100%)
      *Thirty-four beneficiaries did not answer the question about reasons for not purchasing supplemental insurance..


Costs for noncovered services were greater

      About 63 percent of beneficiaries who went to traditional Medicare said they would now
      have to pay for services which had been covered by their former HMO. Some HMOs
      provided coverage for services, such as prescription drugs, that are not covered by
      Medicare. They did so to enhance their ability to compete for enrollees. About 11 percent
      of beneficiaries said they did not know if they would have to pay for services previously
      provided by their HMO because they had not yet needed the services.

      Conversely, only 19 percent of beneficiaries who joined another HMO said their new HMO
      would cover fewer services than their former HMO. Another 10 percent did not know yet
      if they would have to pay for previously covered services.

More than one-fourth of beneficiaries expressed concern
about future HMO withdrawals
      Fifteen percent of the beneficiaries told us that their 1999 HMO withdrawal was not their
      first experience with an HMO withdrawing from Medicare. Of those beneficiaries, 71
      percent said their first experience was at the end of 1998.

About 30 percent of beneficiaries who went to traditional Medicare were
concerned

      Thirty-two percent of beneficiaries who went to traditional Medicare said the fact that
      HMOs could withdraw from Medicare would keep them from joining another one.
      However, another 41 percent of beneficiaries who went to traditional Medicare told us that
      this would not keep them from joining another HMO.



HMO Withdrawals                                          15                                              OEI-04-00-00390
      The remaining 27 percent of beneficiaries who went to traditional Medicare said they did
      not know if the fact that can withdraw from Medicare would keep them from joining one.
      Some beneficiaries told us it would depend on the services offered by the HMO. If it
      would be less costly to be in an HMO, they said they would join it, even if they knew the
      HMO could withdraw a year later.

Almost one-fourth of beneficiaries who went to another HMO were concerned

      Twenty-four percent of beneficiaries who went to another HMO told us they were very
      concerned about their new HMO canceling its contract with Medicare. Thirty-six percent
      were slightly concerned. Forty percent said they were not concerned at all.




HMO Withdrawals                               16                                  OEI-04-00-00390
                               CONCLUSION



      When their HMO withdrew, more beneficiaries lost their option to join another HMO for
      1999, as compared to 1998. The transition to new health care was relatively easy for most,
      but it was difficult for some. However, when they had the option, the affected beneficiaries
      seemed to prefer another HMO, rather than returning to traditional Medicare.
      Beneficiaries were concerned about availability of risk HMOs in the future, obtaining
      information on health care options, and increasing cost -- particularly for prescription
      drugs.

AGENCY COMMENTS

      HCFA commented on our draft report and described various actions to assist beneficiaries
      affected by future HMO withdrawals. For example, HCFA has released final Medicare
      regulations designed to broaden health care options for beneficiaries. HCFA is also
      enhancing outreach efforts for the fall of 2000 to better inform beneficiaries of their health
      care options. Appendix E contains the full text of HCFA’s comments.




HMO Withdrawals                                 17                                    OEI-04-00-00390
                                                                                   APPENDIX A


              COMPARISON OF 1999 AND 1998 FINDINGS 

                     ON HMO WITHDRAWALS


Statistics in Section I are based on population data. The remaining statistics in Sections II -VI are
based on sample data.


                  KEY FINDINGS                             1998             1999          Difference
  I. Affected Beneficiaries
          Risk HMOs available @ 12/98 and 99                346              309              -37
          Beneficiaries served                            6 million      6.3 million       .3 million
          HMO withdrawals                                   100              99               -1
          Beneficiaries displaced                         404,417          298,855         -105,562
          Beneficiaries with no available HMO           50,015 (12%)    90,211 (30%)        40,196
  II. Replacement Coverage
                                                                                                  a
          Beneficiaries joined another HMO                    66%             55%          -11%
                                                                                                 a
          Beneficiaries went to regular Medicare              34%             45%          11%
          Beneficiaries had a choice and chose
          regular Medicare over another HMO                  20%              17%            -3%
          Beneficiaries had a choice and chose
          another HMO                                       80%              83%              3%
  III. Transition Problems
          Transition easy
           All Beneficiaries                                86%             82%              -4%
            Beneficiaries with no available HMO             N/A             74%              N/A
            Beneficiaries with an available HMO             N/A             85%              N/A
          Received timely information
           All Beneficiaries                                82%             87%              5%
           Beneficiaries with no available HMO              N/A             86%              N/A
           Beneficiaries with available HMO                 N/A             87%              N/A
          Received adequate information
           All Beneficiaries                                70%             73%              3%
           Beneficiaries with no available HMO              N/A             63%              N/A
           Beneficiaries with available HMO                 N/A             77%              N/A
HMO Withdrawals                                    18                                  OEI-04-00-00390
                  KEY FINDINGS                       1998    1999       Difference
        Received adequate information on
        supplemental insurance
                                                                               a
          All Beneficiaries                          69%     77%           8%
          Beneficiaries with no available HMO        N/A     78%            N/A
          Beneficiaries with HMO available           N/A     71%            N/A
          Did not need information                   13%      5%            -8%
 IV. Characterization of Health Care
        Characterization of care the same or
        better than former HMO
          Beneficiaries went to another HMO
             About the same                          82%     84%             2%
             Better                                  12%      8%            -4%
          Beneficiaries went to regular Medicare
             About the same                          69%     68%            -1%
             Better                                  21%     19%            -2%
        Kept the same primary physician
         Beneficiaries went to regular Medicare      84%     90%             6%
         Beneficiaries went to another HMO           77%     69%            -8%
        Kept the same specialist
         Beneficiaries went to regular Medicare      87%     95%             8%
         Beneficiaries went to another HMO           80%     75%            -5%
 V. Financial Impact
        New monthly premiums after HMO
        withdrew
         Supplemental insurance                      N/A    $108.82         N/A
         HMO premium                                 N/A    $ 20.27         N/A
        No monthly premium in former HMO
         Beneficiaries went to regular Medicare      52%     51%             -1%
                                                                                a
         Beneficiaries went to another HMO           79%     65%           -14%
        No monthly premium after HMO
        withdrew
         Beneficiaries went to another HMO           72%     51%           -21%
        Obtained supplemental insurance
         All Beneficiaries                           N/A     75%            N/A
         Beneficiaries had no available HMO          N/A     78%            N/A
         Beneficiaries had available HMO             N/A     69%            N/A
        Costs for noncovered services
         Beneficiaries went to regular Medicare      62%     63%            1%
         Beneficiaries went to another HMO           13%     19%            6%


HMO Withdrawals                                 19                    OEI-04-00-00390
                      KEY FINDINGS                                 1998               1999           Difference
             Don’t know if services are covered after
             transition
               Beneficiaries went to regular Medicare              19%                11%                -8%
               Beneficiaries went to another HMO                   16%                10%                -6%
    VI. Future HMO Withdrawals
             Beneficiaries went to regular Medicare
              Would not join another HMO                           34%                32%                -2%
              Would still consider another HMO                     43%                41%                -2%
              Undecided                                            23%                27%                 4%
             Beneficiaries went to another HMO
              Very concerned                                       26%                24%                -2%
              Slightly concerned                                   36%                36%                 0%
              Not concerned                                        38%                40%                 2%

a
    The differences between 1998 and 1999 are statistically significant at the 95 percent confidence level.




HMO Withdrawals                                          20                                       OEI-04-00-00390
                                                                                  APPENDIX B



    ANALYSIS OF RESPONDENTS VS. NON-RESPONDENTS

A consideration in surveys of this type is whether the results may be biased by significant differences
between respondents and non-respondents. To determine whether significant differences exist in
this survey, we compared age, gender, and whether or not beneficiaries had another HMO to join.
Although we had 502 respondents to our telephone calls, some of the beneficiaries responses were
not usable. As a result, we had 463 responses and 223 non-responses to use for this analysis. The
analysis suggests that our survey results were not biased with regard to these factors.

Analysis by Age

A t-test was used to compare the average age of respondents and non-respondents. This difference
was not statistically significant.

                                                 AGE

                              Sample (n=686)                Average Age
                              Respondents (n=463)                72.64
                              Non-respondents (n=223)            73.19

t=-.8104 (not significant)

Analysis by Gender

A chi-square test showed no relationship between respondents and non-respondents with respect to
gender.

                                        Males                      Females
                                        Number         Percent     Number     Percent
               Sample(n=686)               326           48%         360        52%
               Respondents (n=463)         221           48%         242        52%
               Non-respondents             105           47%         118        53%
               (n=223)


Chi-square=.025 (not significant)



HMO Withdrawals                                   21                                    OEI-04-00-00390
Analysis by Whether or Not Beneficiaries Had Another HMO Available to Join
A chi-square test was performed to determine if there was a relationship between the availability of
another HMO to join and response to the survey. The chi-square test showed no significant
difference.



                                          HMO Not                 HMO Available
                                          Available
                                          Number        Percent   Number      Percent
             Sample (n=686)                  338         49%        348         51%
             Respondents (n=463)             225         49%        238         51%
             Non-respondents (n=223)         113         51%        110         49%


Chi-square= .260 (not significant)




HMO Withdrawals                                    22                                 OEI-04-00-00390
                                                                      APPENDIX C


                            CONFIDENCE INTERVALS


                  KEY FINDINGS                          POINT          95%
                                                       ESTIMATE     CONFIDENCE
                                                                  INTERVALS AND
                                                                    BOUNDARIES
  Beneficiaries who went to another HMO                  55%          +/- 3.7%
  when former HMO withdrew.
                                                                   51.3% - 58.7%
  Beneficiaries who went to traditional                  45%          +/- 3.7%
  Medicare when former HMO withdrew.
                                                                   41.3% - 48.7%
  Beneficiaries who had no HMO available to              74%           +/- 4.7%
  join said their transition to another health care
  delivery system was easy to somewhat easy.                       69.3% - 78.7%
  Beneficiaries who had another HMO available            85%          +/- 4.5%
  to join said their transition to another health
  care delivery system was easy to somewhat                        80.5% - 89.5%
  easy.
  Beneficiaries who went to another HMO said             69%          +/- 6.6%
  they kept same primary doctor they had in
  former HMO.                                                      62.4% - 75.6%
  Beneficiaries who went to traditional                  90%           +/- 3.7
  Medicare said they kept same primary doctor
  they had in former HMO.                                          86.3% - 93.7%
  Beneficiaries who had specialists and went to          75%          +/- 7.6%
  another HMO said they kept some or all
  specialists they had in former HMO.                              67.4% - 82.6%
  Beneficiaries who had specialists and went to          95%          +/- 3.2%
  traditional Medicare said they kept some or all
  specialists they had in former HMO.                              91.8% - 98.2%


  Beneficiaries who went to another HMO said             8%           +/- 4.1%
  their health care is better than that received in
  former HMO.                                                       3.9% - 12.1%



HMO Withdrawals                                   23                       OEI-04-00-00390
                  KEY FINDINGS                         POINT          95%
                                                      ESTIMATE     CONFIDENCE
                                                                 INTERVALS AND
                                                                   BOUNDARIES
  Beneficiaries who went to traditional                 19%          +/- 5.0%
  Medicare said their health care was better
  after their HMO withdrew from Medicare.                           14% - 24%
  Beneficiaries who went to another HMO said            84%          +/- 5.5%
  their health care is about the same as that
  received in former HMO.                                         78.5% - 89.5%
  Beneficiaries who went to traditional                 68%          +/- 6.3%
  Medicare said their health care is about the
  same as that received in former HMO.                            61.7% - 74.3%
  Beneficiaries who went to another HMO said            8%           +/- 4.1%
  their health care is worse than that received in
  former HMO.                                                      3.9% - 12.1%
  Beneficiaries who went to traditional                 13%          +/- 4.4%
  Medicare said their health care was worse
  after their HMO withdrew from Medicare.                          8.6% - 17.4%
  Beneficiaries who had no HMO available to             86%         +/- 4.5%
  join had sufficient time to make a decision
  about their health care.                                        81.5% - 90.5%
  Beneficiaries who had another HMO available           87%          +/- 4.2%
  to join had sufficient time to make a decision
  about their health care.                                        82.8% - 91.2%
  Beneficiaries who had no HMO available                63%          +/- 6.2%
  received adequate information about other
  health care coverage.                                           56.8% - 69.2%
  Beneficiaries who had another HMO available           77%          +/- 5.2%
  received adequate information about other
  health care coverage.                                           71.8% - 82.2%
  Beneficiaries who had no HMO available said           32%          +/- 6.0%
  they did not receive adequate information
  about other health care coverage.                                 26% - 38%
  Beneficiaries who had another HMO available           17%          +/- 4.6%
  said they did not receive adequate information
  about other health care coverage.                               12.5% - 21.6%
  Beneficiaries who had no HMO available said           5%           +/- 4.0%
  they did not receive any information about
  other health care coverage.                                        1% - 9%

HMO Withdrawals                                  24                      OEI-04-00-00390
                  KEY FINDINGS                      POINT          95%
                                                   ESTIMATE     CONFIDENCE
                                                              INTERVALS AND
                                                                BOUNDARIES
  Beneficiaries who had another HMO available        6%           +/- 4.4%
  said they did not receive any information
  about other health care coverage.                             1.6% - 10.4%
  Beneficiaries who had no HMO available said        78%          +/- 5.4%
  they received adequate information about
  supplemental insurance.                                      72.6% - 83.4%
  Beneficiaries who had no HMO available said        10%          +/- 3.9%
  they did not receive adequate information
  about supplemental insurance.                                 6.1% - 13.9%
  Beneficiaries who had no HMO available said        7%           +/- 3.3%
  they did not receive any information about
  supplemental insurance.                                       3.7% - 10.3%
  Beneficiaries who had no HMO available said        5%           +/- 2.8%
  they did not need any information about
  supplemental insurance.                                       2.2% - 7.8%
  Beneficiaries who went to another HMO did          65%          +/- 6.8%
  not have to pay a monthly HMO premium in
  the former HMO.                                              58.2% - 71.8%
  Beneficiaries who went to traditional              51%          +/- 6.4%
  Medicare did not have to pay a monthly HMO
  premium in the former HMO.                                   44.6% - 57.4%
  Beneficiaries who went to another HMO said         19%          +/- 5.6%
  their new HMO would cover fewer services
  than their former HMO.                                       13.4% - 24.6%
  Beneficiaries who went to traditional              63%           +/- 6.2
  Medicare said they would now have to pay for
  some services not covered by traditional                     56.8% - 69.2%
  Medicare.
  Beneficiaries who went to another HMO said         10%          +/- 4.3%
  they did not know yet if they would have to
  pay for previously covered services.                          5.7% - 14.3%
  Beneficiaries who went to traditional              11%          +/- 3.9%
  Medicare said they did not know if they would
  have to pay for services previously provided                  7.1% - 14.9%
  by their former HMO.



HMO Withdrawals                               25                       OEI-04-00-00390
                  KEY FINDINGS                    POINT          95%
                                                 ESTIMATE     CONFIDENCE
                                                            INTERVALS AND
                                                              BOUNDARIES
  Beneficiaries who went to traditional            75%         +/- 5.2%
  Medicare had supplemental insurance to cover
  expenses that traditional Medicare does not                69.8% - 80.2%
  cover.
  Beneficiaries who went to another HMO said       24%         +/- 6.1%
  they were very concerned that the new HMO
  would withdraw from Medicare.                              17.9% - 30.1%
  Beneficiaries who went to another HMO said       36%         +/- 6.8%
  they were slightly concerned that the new
  HMO would withdraw from Medicare.                          29.2% - 42.8%
  Beneficiaries who went to another HMO said       40%         +/- 7.0%
  they were not concerned at all that the new
  HMO would withdraw from Medicare.                            33% - 47%
  Beneficiaries who went to traditional            32%         +/- 5.6%
  Medicare said the fact that HMOs can
  withdraw from Medicare would keep them                     26.4% - 37.6%
  from joining another HMO.
  Beneficiaries who went to traditional            41%         +/- 6.2%
  Medicare said the fact that HMOs can
  withdraw from Medicare would not keep                      34.8% - 47.2%
  them from joining another HMO.
  Beneficiaries who went to traditional            27%         +/- 5.5%
  Medicare said they did not know if the fact
  that HMOs can withdraw from Medicare                       21.5% - 32.5%
  would keep them from joining another HMO.




HMO Withdrawals                             26                      OEI-04-00-00390
                                                      APPENDIX D


             MEDICARE RISK HMOs AND ENROLLMENT
                     DECEMBER 1997 TO JUNE 2000




       MONTH/YEAR   # PLANS     # ENROLLEES        % CHANGE
            12/97     307         5,211,339
            01/98     330         5,328,308          2.2%
            06/98     346         5,710,550          7.2%
            12/98     346         6,055,546          6.0%
            01/99     295         5,901,853          -2.5%
            06/99     303         6,192,892          4.9%
            12/99     309         6,347,434          2.5%
            01/00     264         6,189,971          -2.5%
            06/00     261         6,238,549          0.8%




HMO Withdrawals                  27                          OEI-04-00-00390
                                     APPENDIX E


                  AGENCY COMMENTS





HMO Withdrawals          28             OEI-04-00-00390
HMO Withdrawals   29   OEI-04-00-00390
HMO Withdrawals   30   OEI-04-00-00390
HMO Withdrawals   31   OEI-04-00-00390
HMO Withdrawals   32   OEI-04-00-00390
        STAFF PARTICIPATING ON THIS INSPECTION

                   (OEI-04-00-00390)

        OEI Headquarters
                          Region V
 Tricia Davis, Program Specialist
              Ianna Kachoris
Scott Horning, Technical Support 
              Emily Melnick
   Brian Ritchie, Director, TSS
                  Joe Penkrot
  Barbara Tedesco, Statistician
               Stacy Thompson

                                                  Region VI
     OEI Regional Offices                      Jennifer Kahende
                                              Jeannette Oshitoye
            Region I                            Scott Whitaker
         Joyce Greenleaf
           Norman Han                            Region VII
        Russell Hereford                       Zula Crutchfield
         Aimee Kasenga                          Timothy Dold
          Nancy London                           Tricia Fields
        Maria Maddaloni                        Linda Paddock
         Laura McBride                         Elander Phillips
          Nicola Pinson                         Dennis Tharp
            Ken Price
        Elizabeth Robboy                         Region IX
          Mark Yessian                           Tom Purvis

          Region III
        Lauren McNulty

          Stacey Uhl

                                           Office of Audit Services
            Region IV

   Peggy Daniel, Lead Analyst
                   Region IV
   Joe Townsel, Team Leader
                   Yesenia Ramirez
       Allison Grablowsky

         Dwayne Grant

        Rodney Holliman

            Greg Jones

           Janet Miller

       Graham Rawsthorn

        Seth Rosenblatt

          Glen Thomas





                                     33

